                     AUDIT REPORT

     AUDIT OF NRC’S TRAVEL CHARGE CARD PROGRAM


                        13-A-17        April 16, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  April 16, 2013


MEMORANDUM TO:              J.E. Dyer
                            Chief Financial Officer

                            R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S TRAVEL CHARGE CARD PROGRAM
                            (OIG-13-A-17)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Travel Charge Card Program.

The report presents the results of the subject audit. Agency comments provided at the
March 27, 2013, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Eric Rivera, Team Leader, Financial and Administrative Audits Team, at
415-7032.

Attachment: As stated
                                                  Audit of NRC’s Travel Charge Card Program




EXECUTIVE SUMMARY

 BACKGROUND

      The Nuclear Regulatory Commission (NRC) established its travel charge
      card program (referred to as the program) to facilitate employee travel in
      support of the agency’s mission. Specifically, the purpose for using
      Government charge cards designated for travel purposes (referred to as
      travel cards) is to reduce the overall cost of travel to the Federal Government
      through lower administrative costs and by taking advantage of rebates
      offered by card vendors based on the volume of transactions and on prompt
      payment of bills. The Federal Travel Regulation mandates the use of travel
      cards for all official travel expenses unless specifically exempted. Under the
      program, travel cards can be used to pay for expenses related to official
      Government travel, such as lodging, meals, and rental cars. During FY
      2011, approximately $16.8 million was charged for travel under this program.


 OBJECTIVE

      The audit objective was to assess the adequacy and effectiveness of NRC’s
      policies, procedures, and internal controls over the travel card program for
      preventing and detecting travel charge card misuse and delinquencies.


 RESULTS IN BRIEF

      NRC’s travel card program has policies, procedures, and internal controls in
      place to prevent and detect travel card misuse and delinquencies. NRC
      also has policies in place to lower the overall cost of official travel to the
      agency. However, the Office of the Inspector General (OIG) determined the
      efficiency and effectiveness of NRC’s management of rebates and quarterly
      data reporting to Office of Management and Budget (OMB) can be improved.
      Specifically, opportunities exist to:

         A. Maximize NRC’s rebates by using recommended Federal strategies.

         B. Improve quarterly reported data accuracy by employing available
            tools.


                                      i
                                                Audit of NRC’s Travel Charge Card Program




RECOMMENDATIONS

    This report makes recommendations to improve the internal controls over the
    management of the travel card program. A list of these recommendations
    appears on pages 17 and 18 of this report.


AGENCY COMMENTS

    An exit conference was held with the agency on March 27, 2013. Agency
    management stated their agreement with the findings and recommendations
    in this report and opted not to provide formal comments for inclusion in this
    report.




                                   ii
                                                  Audit of NRC’s Travel Charge Card Program




ABBREVIATIONS AND ACRONYMS

       Coordinator Agency/Organization Program Coordinator

       GSA         General Services Administration

       MD          Management Directive

       NRC         Nuclear Regulatory Commission

       OCFO        Office of the Chief Financial Officer

       OIG         Office of the Inspector General

       OMB         Office of Management and Budget




                                     iii
                                                                      Audit of NRC’s Travel Charge Card Program




TABLE OF CONTENTS



         EXECUTIVE SUMMARY ............................................................................... i

         ABBREVIATIONS AND ACRONYMS ...........................................................iii

         I.      BACKGROUND ................................................................................. 1

         II.     OBJECTIVE ....................................................................................... 4

         III.    FINDINGS .......................................................................................... 4

                     A. REBATE MANAGEMENT .......................................................... 7

                     B. ACCURACY OF QUARTERLY DATA REPORTS ................... 12

        IV.      CONSOLIDATED LIST OF RECOMMENDATIONS ......................... 17

         V.      AGENCY COMMENTS ..................................................................... 19

         APPENDIX

                     A. OBJECTIVE, SCOPE AND METHODOLOGY......................... 20




                                                    iv
                                                                   Audit of NRC’s Travel Charge Card Program




I.        BACKGROUND

                  The Nuclear Regulatory Commission (NRC) established its travel charge
                  card program (referred to as the program) to facilitate employee travel in
                  support of the agency’s mission. Specifically, the purpose for using
                  Government charge cards designated for travel purposes (referred to as
                  travel cards) is to reduce the overall cost of travel to the Federal
                  Government through lower administrative costs and by taking advantage of
                  rebates offered by card vendors based on the volume of transactions and
                  on prompt payment of bills. The Federal Travel Regulation mandates the
                  use of travel cards for all official travel expenses unless specifically
                  exempted. Under the program, travel cards can be used to pay for
                  expenses related to official Government travel, such as lodging, meals, and
                  rental cars.

                  The General Services Administration (GSA) administers the
                  Governmentwide Travel Card Program through a master contract. Under
                  this master contract, GSA has agreements with several banks, including
                  Citibank — the bank used by NRC — to provide travel cards to Federal
                  employees. NRC negotiates specific terms for its travel card program, and
                  these terms are listed in a task order. The NRC task order includes, among
                  other things, the period of performance and the rebate schedule expressed
                  as basis points.1 A rebate2 is the monetary payment provided to an agency
                  by charge card vendors based on the amount spent and the timeliness of
                  payments.

                  The Office of Management and Budget (OMB) prescribes policies and
                  procedures regarding internal controls over Government charge card
                  programs in OMB Circular A-123, Appendix B, Revised, (OMB Circular A-
                  123, Appendix B), ―Improving the Management of Government Charge Card
                  Programs.‖ Goals of the guidance include reducing program costs through
                  the maximization of rebates and using program data to monitor policy
                  compliance and inform management decisionmaking.




1
  One basis point is one one-hundredth of one percent. Expressed as a decimal, one basis point equals
.0001 or 10 cents ($.10) per $1,000.
2
    Congress has used the term ―refund‖ and ―rebate‖ interchangeably.

                                                     1
                                                                    Audit of NRC’s Travel Charge Card Program




                This guidance requires that each agency develop and maintain written
                policies and procedures for the appropriate use of travel cards. To comply
                with this requirement, NRC’s Office of the Chief Financial Officer (OCFO),
                the lead office for the travel card program, developed the Travel Charge
                Card Management Plan to document administrative policies and
                procedures for both Individually Billed Accounts3 and Centrally Billed
                Accounts4. The Travel Charge Card Management Plan includes training
                requirements, responsibilities of travel charge card program participants,
                procedures to obtain a travel card, requirements to evaluate program
                effectiveness to reduce program costs, and reporting program metrics to
                OMB.

                OCFO has a designated Agency/Organization Program Coordinator
                (Coordinator) who is responsible for the overall management and oversight
                of the program. The Coordinator serves as the liaison between cardholders
                and the contracting bank. Other Coordinator responsibilities include:
                      Processing new travel card applications, including training verification.
                      Providing guidance to NRC travel cardholders regarding program
                      policies and the appropriateness of proposed charges under the travel
                      card program.
                      Assisting users with their individual travel card accounts.
                      Canceling travel cards when cardholders leave the NRC.




3
  Individually Billed Account: A Government contractor-issued charge card used by authorized individuals
to pay for official travel-and transportation-related expenses for which the contractor (bank) bills the
employee, and for which the individual is liable to pay.
4
  Centrally Billed Account: A card/account established by the charge card vendor at the request of the
agency/organization. Payments are made directly to the charge card vendor by the agency. Federal
agencies are responsible for specifying which travel cards must be centrally billed cards/accounts at the
task order level.
                                                     2
                                                        Audit of NRC’s Travel Charge Card Program




               Additionally, OCFO staff are responsible for:
                 Reviewing quarterly rebate statements for accuracy.
                 Reporting required data elements to OMB.
                 Evaluating program effectiveness and compliance with Federal
                 policies.

             As of September 30, 2011, 2,618 NRC employees had individually billed
             cards and the agency held 5 centrally billed cards. During FY 2011,

             individuals charged approximately $9.4 million on individual cards and the
             agency charged approximately $7.4 million for airfare, train fare, and airline
             and agency fees on its centrally billed account (see Figure 1). The program
             employs approximately three full-time equivalents.


Figure 1

           FY 2011 Dollar Value of Travel Card Accounts




            $7,368,463
                                                        Individually Billed Accounts
                               $9,416,530
                                                        Centrally Billed Accounts




 Source: The Office of the Inspector General (OIG) Analysis of Citibank Data




                                            3
                                                                   Audit of NRC’s Travel Charge Card Program




II.     OBJECTIVE

                The audit objective was to assess the adequacy and effectiveness of NRC’s
                policies, procedures, and internal controls over the travel card program for
                preventing and detecting travel charge card misuse and delinquencies. The
                report Appendix contains information on the audit scope and methodology.



III.    FINDINGS

                NRC’s travel card program has policies, procedures, and internal controls in
                place to prevent and detect travel card misuse and delinquencies. NRC
                also has policies in place to lower the overall cost of official travel to the
                agency. However, OIG determined the efficiency and effectiveness of
                NRC’s management of rebates and quarterly data reporting to OMB can be
                improved. Specifically, opportunities exist to:

                    A. Maximize NRC’s rebates by using recommended Federal strategies.

                    B. Improve quarterly reported data accuracy by employing available
                       tools.


                During the course of the audit, OIG found that nearly two-thirds of agency
                card holders were not in compliance with OMB’s training requirements.5
                OIG discussed this matter with OCFO officials who agreed with this finding
                and took corrective action. Yellow Announcement No. 148, dated
                November 16, 2012, states in part:

                        ―New travel charge card applicants and existing travel
                        charge cardholders can now complete the Government




5
  OMB requires card holders to be trained before a travel card is issued and, at a minimum, every 3 years
thereafter.

                                                    4
                                            Audit of NRC’s Travel Charge Card Program




       Travel Charge Card Training (Web-based) course in
       iLearn. The course will be added directly to your iLearn
       ―To-Do‖ list on November 20, 2012. Once the course is
       completed, the travel charge card training will appear in
       iLearn as ―Completed Work.‖ iLearn will keep a record
       of the completion date. Travel charge cardholders will
       receive reminders to retake the course 21 days prior to
       the ―Required By‖ date, which is 3 years from the date
       the last Government Travel Charge Card Training was
       completed. However, for those employees who have
       exceeded the 3-year training requirement deadline,
       iLearn will add a training requirement with a due date of
       February 28, 2013.‖

OIG found this action adequate to address the agency’s non-compliance
with OMB training requirements.

Additionally, OIG analyzed more than 100,000 lines of both individually and
centrally billed FY 2011 account transactions by merchant category code
and did not identify any apparent significant misuse or abuse. The
transactions are categorized in Table 1. The Coordinator reported there
were two disciplinary actions taken during FY 2011 against NRC employees
related to travel card abuse reported prior to FY 2011.

A review of OIG investigative files shows that five cases related to travel
card abuse were opened during FY 2011. In four of the five cases,
disciplinary action was taken during FY 2012. In the fifth case, the
employee was counseled in FY 2012 about travel card abuse.




                               5
                                                                           Audit of NRC’s Travel Charge Card Program




Table 1

    Card Type               Category                           Item Count                      Value
                     Common Carrier6                               7,249                    $ 356,227
                     Rental Car, Other Auto                       16,701                    $ 1,563,235
Individually
                     Food                                         14,858                    $ 303,297
   Billed
                     Hotel                                        15,468                    $ 6,260,023
 Accounts
                     Cash Disbursements                            3,773                    $ 717,226
                     Other                                         1,369                    $ 216,522
                                    Subtotal                             59,418                    $ 9,416,530
    Centrally        Common Carrier                               13,569                    $ 6,889,762
     Billed
                     Travel Agent Fee                             32,750                    $    478,701
    Accounts
                                          Subtotal                     46,319                $ 7,368,463
     TOTAL                                                            105,737               $16,784,993
                                                                    Source: OIG analysis of Citibank data




6
    Private-sector supplier of air, rail or bus transportation.
                                                           6
                                                      Audit of NRC’s Travel Charge Card Program




A.   Rebate Management

          NRC’s travel card program management does not maximize travel
          card rebates. OIG’s analysis of the FY 2011 rebate shows that the
          agency could have received approximately $60,000 more than the
          $96,242 it received on net charges of approximately $16.8 million.
          NRC does not maximize its rebate because program management
          staff does not effectively use strategies identified in OMB Circular A-
          123, Appendix B, available to Federal agencies to increase rebate
          payments. As a result, NRC does not receive the maximum rebate,
          which, in turn, makes program costs unnecessarily high. Further,
          NRC is not in full compliance with OMB requirements.

          Federal Policy and Agency Guidance

          OMB prescribes policies requiring agencies to maximize their rebates to
          lower overall program costs. NRC’s rebates are based on the NRC-specific
          task order between the agency and Citibank, and OMB requires quarterly
          review of the task order to ensure proper amounts are being refunded.
          There are two types of rebates the agency can use to maximize its refund:
          (1) productivity, based on timeliness of payments by both the agency and
          individuals, and (2) sales, based on the volume of charges for the period.

          The Federal Travel Regulation mandates use of the travel card by
          Government employees unless they travel five or fewer times per year.
          However, agencies have the flexibility to require any employee who travels
          on official business to use the card.

          NRC staff have two internal documents that provide agency-specific
          guidance: the Travel Charge Card Management Plan and Management
          Directive (MD) 14.1, Official Temporary Duty Travel. The Travel Charge
          Card Management Plan requires OCFO staff to seek to maximize refunds
          and requires that all employees who travel more than five times annually
          use a travel card to pay for official travel expenses.

          MD 14.1 states, ―any NRC employee who expects to make more than five
          trips during any 12-month period (frequent traveler) should apply
                                        7
                                                                    Audit of NRC’s Travel Charge Card Program




                  [emphasis added] for the card.‖ This is not compliant with Federal
                  regulations that require employees who travel more than five times per
                  year to use the card for official Government travel expenses.

                  NRC Not Maximizing Rebate

                  NRC’s travel card program management does not maximize the
                  agency’s travel card rebate. For example, NRC does not monitor
                  use of the card by frequent travelers, mandate split disbursement,7
                  or pay centrally billed accounts within a day of invoice receipt – all
                  conventional strategies for improving rebates for use of the travel
                  card. In FY 2011, NRC received a sales and productivity rebate of
                  $96,242 on net charges of approximately $16.8 million. Centrally
                  billed account payments earned approximately 36 percent of the
                  maximum potential productivity rebate. Individually billed account
                  payments earned approximately 64 percent of the maximum
                  potential productivity rebate. Information identifying frequent
                  travelers to calculate additional potential sales rebates was
                  unavailable. Further, OCFO staff do not review the task order and
                  verify rebates as required by OMB.

                  Rebate Strategies Not Effectively Used

                  NRC does not maximize its rebate because program management staff do
                  not effectively use the strategies identified in OMB Circular A-123, Appendix
                  B, Attachment 5, ―Best Practices in Managing Government Charge Card
                  Programs,‖ designed to increase timeliness of payments and/or sales
                  volume. Specifically, the agency does not pay invoices as received on




7
    The Government pays the credit card vendor directly when a traveler uses the card and files a voucher
for reimbursement, while additional money owed to the traveler goes to the traveler’s bank account.
Without split disbursement, the traveler receives the entire voucher settlement and in turn pays the credit
card bill.


                                                      8
                                                                  Audit of NRC’s Travel Charge Card Program




               centrally billed accounts for the productivity rebate, nor does it explore basis
               point options for the sales rebate. Additionally, the agency does not identify
               frequent travelers or enforce their use of the card for official travel expenses
               as required by the Federal Travel Regulation.

               Productivity

               The agency does not pay the entire bill for centrally billed accounts upon
               receipt, but instead pays the bill as charges are matched to specific line
               items. In FY 2011, centrally billed account bills were paid on average 33
               days after receipt of the invoice, whereas individually billed accounts were
               paid on average 19 days after receipt of the invoice.

               OIG reviewed the centrally billed account line items and determined that 70
               percent of the transactions were related to travel agency fees of $14 or
               less; however, these items represented only 6.5 percent of the total costs.
               The process would be more efficient if payment of these fees were made
               daily or weekly, instead of monthly after charges are matched to specific
               line items. If centrally billed accounts were paid within 1 day of receipt of
               invoice, and then discrepancies were reconciled, the agency would
               increase its productivity refund by approximately $35,000.

               Agency officials have another strategy available to manage productivity
               refunds – split disbursement. However, split disbursement will be
               advantageous only when the agency improves its payment productivity so
               that, on average, the agency pays its bills faster than employees. The
               agency has implemented split disbursement, but it is optional.

               Some agencies that OIG benchmarked8 require all travelers to use split
               disbursement to maximize their productivity refund. Use of split
               disbursement is also mandatory for all Department of Defense travelers,
               according to its travel Web site. Assuming the agency improves centrally




8
 OIG examined travel card practices at four agencies to determine how their travel card programs are
managed.
                                                   9
                                                                   Audit of NRC’s Travel Charge Card Program




                billed account payment productivity, split disbursement will increase the
                productivity refund by approximately $25,000.

                Sales

                The agency does not identify its frequent travelers or enforce the
                requirement that they use their Government travel card for official travel.
                Currently, NRC defines a frequent traveler as anyone who travels more
                than five times per year. That is also the Federal minimum requirement.
                However, the agency has the authority to require any employee who travels
                at any frequency to use their Government contractor issued travel card.
                The agency was unable to provide the number of employees who travelled
                more than five times and did not use a Government travel card during FY
                2011. Accordingly, OIG could not perform an analysis to determine the
                amount of increased rebate the agency would have received for FY 2011,
                had all travelers, in fact, used their cards rather than pay by other means.

                Furthermore, the agency does not perform two other OMB requirements:
                check the productivity and sales refund deals offered by charge card
                vendors in comparison to other Governmentwide charge card contracts to
                ensure a competitive offer,9 and explore the possibility of tagging along10 to
                another agency’s existing task order to obtain a better rebate rate.

                Additional Rebates Available

                OIG analysis found that the agency could have received an
                additional productivity rebate of approximately $60,000 by paying
                centrally billed accounts more efficiently and using mandatory split
                disbursement. By not taking advantage of available strategies as
                recommended by OMB, NRC does not receive all potential rebate
                revenue. This unnecessarily raises program costs and results in the



9
 The General Services Administration maintains information on many agency refund arrangements and
may be used by agency managers for market research purposes.
10
  Joining another agency’s established task order in order to receive the same services and rates that are
provided to the primary agency.
                                                    10
                                            Audit of NRC’s Travel Charge Card Program




agency being non-compliant with OMB requirements to maximize
rebates.


Recommendations

OIG recommends that the Chief Financial Officer:

   1.   Develop and implement a policy to pay centrally billed travel card
        accounts daily or weekly.

   2.   Check the productivity and sales refund deals offered by charge
        card vendors in comparison to other governmentwide charge card
        contracts to ensure a competitive rate.

   3.   Explore the possibility of using another agency’s existing task order
        (―tag along‖) to obtain a better rebate rate.

   4.   Revise Management Directive 14.1 to require that employees who
        travel more than five times per year must use their Government
        travel card for official travel expenses.

   5.   Identify frequent travelers and monitor card use to determine if (a)
        they have a travel card, and (b) are using it to pay for official travel
        expenses.

   6.   Implement mandatory split disbursement for individually billed
        accounts.




                               11
                                                                  Audit of NRC’s Travel Charge Card Program




       B.       Accuracy of Quarterly Data Reports

               OMB requires travel card program managers to report program data at least
               quarterly. OCFO officials responsible for the travel card program did not
               report accurate or supportable quarterly data to OMB. In FY 2011, NRC
               reported incorrect or unsupportable information for 6 of the 14 required data
               elements. This occurred because program managers do not effectively use
               the tools available through Citibank’s electronic access system11 and other
               sources. As a result, NRC management did not receive accurate
               information to inform program decisions.

               OMB Requirements

               OMB Circular A-123, Appendix B, requires certain agencies, including NRC,
               that participate in the travel card program to report 14 data elements (see
               Table 2) on a quarterly basis. The Circular states that ―data monitoring is a
               critical tool to improve program management and comply with legislative
               requirements.‖ Additionally, ―charge card managers and other stakeholders
               need timely and accurate data to assess:
                        • Compliance with legislative and administrative requirements.
                        • The effectiveness of efforts to mitigate risks of fraud, waste, and
                           abuse.
                        • Performance trends in managing costs and other relevant
                           indicators of program success.‖

               Data Inaccurate and Unsupportable

               NRC reports quarterly travel card program data as required. However,
               OCFO reported incorrect or unsupportable information to OMB on 6 of the
               14 required data elements for FY 2011. See Table 2 for a list of the
               elements and their status.




11
  The charge card contractor’s Internet-based system that provides account access and a variety of
reports that assist in the effective management of the charge card programs.
                                                   12
                                                 Audit of NRC’s Travel Charge Card Program




Table 2
          Data Element                Status               Reason
                                                     No supporting
# cards                         Unsupported
                                                     documentation
                                                     No supporting
# active accounts               Unsupported
                                                     documentation
% of employees who are                               No supporting
                                Unsupported
cardholders                                          documentation
                                                     No supporting
Net # of new accounts           Unsupported
                                                     documentation
Dollars spent                        Correct
Refunds earned                       Correct
                                                     The agency did not
% of potential refunds
                                     Incorrect       calculate actual % -
earned
                                                     always reports 100%
# cases reported to agency,
OIG, or Coordinator for              Correct
possible misuse
# administrative/disciplinary
                                     Correct
actions taken for misuse
# cardholders with
                                     Correct
transaction limits
% cardholders with
                                     Correct
transaction limits
# cardholders with
Automated Teller Machine             Correct
limits
% cardholders with
Automated Teller Machine             Correct
limits
                                            Agency was basing
% cardholders that are                      this number on
                                Incorrect
infrequent travelers                        quarterly data instead
                                            of annual data
                           Source: OIG analysis of OCFO information


                                13
                                           Audit of NRC’s Travel Charge Card Program




OIG determined two data elements were incorrect and four were
unsupported. Agency management agreed with the assessment of the two
incorrect elements. The other four items are unsupportable because while
the agency reportedly used data from the Citibank electronic access
system, there was no documentation to support this statement. OIG
recomputed the number of cardholders for each quarter using data obtained
directly from the Citibank system and was unable to match OCFO results.
The other three unsupportable categories are based on the number of
cardholders, which, as noted previously, was not supportable.

Electronic Access System Not Effectively Used

NRC does not accurately or efficiently report quarterly data because OCFO
staff do not effectively use reports available from Citibank’s electronic
access system. For example, three of four agencies benchmarked by OIG
obtain their respective agency quarterly data directly from available Citibank
reports as opposed to the manual calculations performed by OCFO staff.
At no additional cost, one agency also had Citibank create a custom report.

Training Opportunities Missed

In addition, neither the travel charge card program manager nor the agency
program Coordinator completed training to become familiar with Citibank’s
reporting capabilities. GSA’s training for program managers recommends
that they review the bank’s electronic access system training guide or go
online to learn what specific reports are offered. Citibank’s Web site
delivers basic, online training for using the reporting system and Citibank
customer service representatives are always available to answer questions
and resolve issues.

GSA offers online training opportunities as well as in-person classes at
annual training meetings. At these training meetings, attendees are
afforded opportunities to network with program managers from other
agencies and others involved with travel cards and benefit from the
experiences of other agencies; however, no one from OCFO has recently
attended these annual meetings.

                              14
                                                 Audit of NRC’s Travel Charge Card Program




      Supporting Data Not Maintained By NRC

      During the course of this audit, OIG requested supporting documentation
      for quarterly data reported to OMB. OCFO officials stated that they do not
      maintain quarterly source data gathered for OMB reporting. These actions
      run counter to GSA’s training program for managers and other officials,
      which cautions that copies of all electronic reports generated, particularly
      statistical or summary reports, should be saved.

      Program Managers Cannot Determine Program Success

      Without correct data and historical program statistics, NRC program
      managers cannot optimally assess:
            • Compliance with legislative and administrative requirements.
            • The effectiveness of efforts to mitigate risks of fraud, waste, and
                abuse.
            • Performance trends in managing costs and other relevant
                indicators of program success.

      Further, NRC is in violation of the requirement to provide OMB with
      accurate information.


Recommendations

OIG recommends that the Chief Financial Officer:

         7.   Use the Citibank reports enumerated in the contract as the basis
              for reporting required quarterly data.

         8.   Ensure that the travel card program manager and the agency
              program Coordinator complete online training related to Citibank’s
              electronic access system.




                                    15
                                       Audit of NRC’s Travel Charge Card Program




9.   Ensure that the travel card program manager and/or the agency
     program Coordinator attend GSA’s annual training meeting related
     to travel cards to network with other agencies regarding travel card
     program best practices.

10. Benchmark NRC’s data reporting strategies and results to at least
    three peer agencies.

11. Review and analyze benchmarking information to determine if it
    can be implemented at NRC.

12. Develop and implement procedures to maintain quarterly statistical
    and narrative supporting information for subsequent review and
    trend analysis.




                          16
                                                    Audit of NRC’s Travel Charge Card Program




IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Chief Financial Officer:

              1.   Develop and implement a policy to pay centrally billed travel card
                   accounts daily or weekly.

              2.   Check the productivity and sales refund deals offered by charge
                   card vendors in comparison to other governmentwide charge
                   card contracts to ensure a competitive rate.

              3.   Explore the possibility of using another agency’s existing task
                   order (―tag along‖) to obtain a better rebate rate.

              4.   Revise Management Directive 14.1 to require that employees
                   who travel more than five times per year must use their
                   Government travel card for official travel expenses.

              5.   Identify frequent travelers and monitor card use to determine if (a)
                   they have a travel card, and (b) are using it to pay for official
                   travel expenses.

              6.   Implement mandatory split disbursement for individually billed
                   accounts.

              7.   Use the Citibank reports enumerated in the contract as the basis
                   for reporting required quarterly data.

              8.   Ensure that the travel card program manager and the agency
                   program Coordinator complete online training related to
                   Citibank’s electronic access system.

              9.   Ensure that the travel card program manager and/or the agency
                   program Coordinator attend GSA’s annual training meeting
                   related to travel cards to network with other agencies regarding
                   travel card program best practices.

              10. Benchmark NRC’s data reporting strategies and results to at least
                  three peer agencies.


                                       17
                                     Audit of NRC’s Travel Charge Card Program




11. Review and analyze benchmarking information to determine if it
    can be implemented at NRC.

12. Develop and implement procedures to maintain quarterly
    statistical and narrative supporting information for subsequent
    review and trend analysis.




                        18
                                                Audit of NRC’s Travel Charge Card Program




V.   AGENCY COMMENTS

        An exit conference was held with the agency on March 27, 2013. Agency
        management stated their agreement with the findings and
        recommendations in this report and opted not to provide formal comments
        for inclusion in this report.




                                    19
                                                   Audit of NRC’s Travel Charge Card Program


                                                                                 Appendix


OBJECTIVE, SCOPE, AND METHODOLOGY

        OBJECTIVE

        The audit objective was to assess the adequacy and effectiveness of
        NRC’s policies, procedures, and internal controls over the travel card
        program for preventing and detecting travel charge card misuse and
        delinquencies.

        SCOPE

        The audit focused on reviewing the management and internal controls over
        the travel card program during FY 2011. We conducted this performance
        audit at NRC headquarters from January 2012 to October 2012. Internal
        controls related to the audit objective were reviewed and analyzed.
        Throughout the audit, auditors were aware of the possibility or existence of
        fraud, waste, or misuse in the program.

        METHODOLOGY

        OIG reviewed relevant Governmentwide charge card program requirements
        and guidance, including OMB Circular A-123, Appendix B, Improving the
        Management of Government Charge Card Programs, designed to provide a
        single source document incorporating any updates, new guidance, or
        amendments to existing guidance and establishing standard minimum
        requirements and suggested best practices for Government charge card
        programs that may be supplemented by individual agency policy and
        procedure. OIG also reviewed agency guidance, including management
        directives and office policies and procedures pertaining to Government
        charge cards, as well as audit reports of other Federal agencies related to
        this topic. We also examined a number of FY 2011 OCFO travel card
        records. Specifically, the audit team reviewed the calculations for data
        element reporting to OMB for accuracy, and travel card training completion
        records to determine if employees completed the training before obtaining a
        card.

                                      20
                                          Audit of NRC’s Travel Charge Card Program




Additionally, OIG completed the necessary training required to use the
electronic access system, CitiDirect® Card Management System. OIG
auditors used the system to download, review, and analyze data related to
NRC’s travel card program through the use of the Audit Command
Language system. OIG also reviewed and analyzed SmartPay® 2 statistics
posted on GSA’s Web site.

OIG interviewed staff at headquarters in Rockville, Maryland, who
participate in activities related to various aspects of NRC’s travel card
program. We conducted these interviews to obtain staff insights into the
implementation, management, and oversight of the program.
OIG also conducted telephone interviews with staff at the U.S. Agency for
International Development, U.S. Securities and Exchange Commission,
U.S. General Services Administration, and the National Archives and
Records Administration regarding their conduct of travel card programs
similar to NRC’s.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Eric Rivera, Team Leader; Kathleen
Stetson, Team Leader; Terri L. Cooper, Audit Manager; Gail F.P. Butler,
Senior Auditor; Mary W. Meier, Senior Auditor; and Gurpal Singh, Student
Analyst.




                             21
